HHS/OIG-Audit--"Administrative Costs Claimed Under Part A of the Health Insurance for the Aged and Disabled Program - Independence Blue Cross, (A-03-91-02000)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Administrative Costs Claimed Under Part A of the Health Insurance for the Aged and Disabled Program - Independence
Blue Cross," (A-03-91-02000)
June 17, 1993
Complete
Text of Report is available in PDF format (1.75 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points that Independence Blue Cross (IBC) claimed approximately $1.7 million in unallowable costs
for the 3-year period ended September 30, 1989. The unallowable costs consisted of expenditures in excess of budgeted amounts,
costs of nonapproved investment projects, and credits due, but not made, to the Medicare line of business. In addition
to financial adjustments, we recommended procedural improvements. Health Care Financing Administration officials generally
concurred with our recommendations.